No.

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
KEITH ALLEN WILSON - PETITIONER
VS.
STATE OF FLORIDA - RESPONDENT(S)
PROOF OF SERVICE
I, Keith Allen Wilson, do swear or declare that on this
^ate’--------- ^Xy----^0__________ _ 2020, as required
by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by
depositing an envelope containing the above documents in
the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614,
Department Justice, 950 Pennsylvania Ave
NW
Washington, D.C. 20530-0001, and Supreme Court of United
States, One First Street N.E. Washington D.C. 20543.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on

20

day of

V

2020.

Keith Allen Wilson - DC #Y63626
Apalachee Correctional Institution
35 Apalachee Drive
Sneads, Florida 32460-4166
19

1

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
KEITH ALLEN WILSON
VS.

U.S. SUPREME COURT
No.

STATE OF FLORIDA

NOTICE OF INQUIRY
1.

Petitioner is requesting a letter of acknowledgment that this
Petition for Writ of Certiorari was filed on the United States
Supreme Court docket.
PROOF OF SERVICE

This Notice of Inquiry is filed in good faith and was mailed to:
Supreme Court of the United States, One First Street N.E.,
Washington D.C., 20543
I, Keith Allen Wilson, declare under Penalty of Perjury that the
foregoing is true and correct
Executed on

~7- 3.0

., 2020.

BY:
Keith Allen Wilson - DC #Y63626
Apalachee Correctional Institution
35 Apalachee Drive
Sneads, Florida 32460-4166

/S/
Keith Allen Wilson, Pro-Se’ Litigator

